         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA’s BioWatch Role Reduced
       Report No. 10-P-0106         


       April 20, 2010

Report Contributors:                              Jeffrey Harris
                                                  Denton Stafford
                                                  Steve Weber




Abbreviations

DHS           U.S. Department of Homeland Security
EPA           U.S. Environmental Protection Agency
OAR           Office of Air and Radiation
OIG           Office of Inspector General




Cover photos:	 BioWatch 3 detectors being tested and researchers collecting data during a
               study on airflow in Boston’s subway system. (Photos courtesy U.S.
               Department of Homeland Security)
                       U.S. Environmental Protection Agency 	                                                10-P-0106
                                                                                                          April 20, 2010
                       Office of Inspector General


                       At a Glance
                                                                             Catalyst for Improving the Environment


Why We Did This Review                EPA’s BioWatch Role Reduced 

We performed this review to
                                       What We Found
follow up on the Office of
Inspector General’s (OIG’s) 2005
                                      EPA’s role has been significantly reduced from that at the time of our 2005
report titled EPA Needs to Fulfill
                                      review. DHS has assumed control of the major components of BioWatch for
Its Designated Responsibilities to
                                      which EPA was initially responsible. These activities include the sampling
Ensure Effective BioWatch
                                      portion of the program and the issuance of grants to State and local air
Program. In 2005, the OIG
                                      monitoring agencies to conduct daily monitoring activities. Further, the
found that the U.S.
                                      Centers for Disease Control and Prevention and local public health labs are
Environmental Protection
                                      now responsible for filter collection and analysis. As of January 2010, EPA
Agency (EPA) did not provide
                                      was providing technical assistance relating to emergency response and was
adequate oversight of BioWatch
                                      responsible for updating post detection sampling plans requested by
sampling operations and did not
                                      jurisdictions. For the 1-year period January 2009 to January 2010, EPA
ensure quality assurance guidance
                                      received $780,000 from DHS for its BioWatch activities. In Fiscal Years 2004
was followed.
                                      and 2005, EPA received $26.8 million from DHS.
Background
                                      When the BioWatch program was first introduced in 2003, the designated
BioWatch was created by the           responsibilities of EPA’s Office of Air and Radiation constituted a crucial part
U.S. Department of Homeland           of the BioWatch program – the sampling operations. These operations
Security (DHS) to detect              included monitor deployment, site security, oversight, and assessment of
biological agents in select cities.   monitor technology. In the OIG’s 2005 report, we found that EPA did not
Introduced in early 2003,             provide adequate oversight of the sampling operations to ensure quality
BioWatch is part of an evolving,      assurance guidance was adhered to, potentially affecting the quality of the
nationwide biosurveillance            samples.
system that looks for early
indicators of the exposure of
                                      Because EPA’s role in the BioWatch Program has been reduced, follow-up on
people, animals, and plants to
                                      implemented corrective actions agreed to for the previous OIG report is no
biological agents. Initially, EPA
                                      longer required. We concluded that EPA did not need to take further action in
maintained the sampling portion
                                      response to our 2005 report.
of the BioWatch program, in part
because of the Agency’s
experience in air monitoring.         This report makes no recommendations. As a result, no further action is
                                      required by EPA. The Agency did not have formal comments on the draft
                                      report.
For further information, contact
our Office of Congressional,
Public Affairs and Management at
(202) 566-2391.

To view the full report,
click on the following link:
www.epa.gov/oig/reports/2010/
20100420-10-P-0106.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          April 20, 2010

MEMORANDUM

SUBJECT:               EPA’s BioWatch Role Reduced
                       Report No. 10-P-0106


FROM:                  Wade T. Najjum
                       Assistant Inspector General for Program Evaluation

TO:                    Mathy Stanislaus
                       Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General of the
U.S. Environmental Protection Agency. This report does not contain findings and
recommendations.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $158,446.

Action Required

Because this report contains no recommendations, you are not required to respond to this report.
We have no objections to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact me at 202-566-0827
or najjum.wade@epa.gov, or Jeffrey Harris at 202-566-0831 or harris.jeffrey@epa.gov.
                                                                                                   10-P-0106 



Purpose
The purpose of this review was to evaluate the status of corrective actions taken by the U.S.
Environmental Protection Agency (EPA) in response to an Office of Inspector General (OIG)
report issued in 2005.1 Specifically, we sought to determine EPA’s current role in the BioWatch
program and whether the recommendations from the OIG 2005 report are still applicable.

Background
EPA, in concert with the U.S. Department of Homeland Security (DHS), the U.S. Department of
Energy, and the Centers for Disease Control and Prevention, deployed an air sampling system
during the period late January to mid-April 2003, for which preexisting monitoring stations
across the United States were selected. This system is part of the BioWatch program, which is
designed to provide early detection of releases of select biological agents in the air through a
comprehensive protocol of monitoring and laboratory analysis. BioWatch is funded by DHS.

Initially, EPA maintained the sampling portion of the BioWatch program because of the
Agency’s experience in air monitoring and ability to provide grants to State and local air
monitoring agencies conducting daily monitoring activities. EPA’s Office of Air Quality
Planning and Standards in the Office of Air and Radiation (OAR) coordinated the air sampling
component. This sampling component involved aerosol monitors mounted on preexisting EPA
air quality stations to detect biological pathogens that might be intentionally released by
terrorists. The aerosol monitors contained filters that were manually collected at 24-hour
intervals, 7 days a week, 365 days a year.

Noteworthy Achievements
EPA has collaborated successfully with DHS on BioWatch and provided DHS with the expertise
to take over the complete program. According to staff from OAR’s Office of Air Quality
Planning and Standards, the original intent of EPA’s involvement in BioWatch was to shift its
responsibilities to DHS when it had the capability and capacity to manage the program.

Scope and Methodology
We conducted this evaluation in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the evaluation to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based upon our objectives. We performed our follow-up evaluation from
October 2009 through March 2010.

We reviewed the status of the implementation of recommendations from our previously issued
report. To complete our review, we met with staff from EPA’s Office of Emergency

1
 EPA OIG, EPA Needs to Fulfill Its Designated Responsibilities to Ensure Effective BioWatch Program, Report No.
2005-P-00012, March 23, 2005.


                                                      1

                                                                                       10-P-0106 



Management and OAR and analyzed support documents to determine the status of
implementation of the report’s recommendations. We also spoke with Office of Inspector
General representatives from DHS and the U.S. Department of Health and Human Services. We
reviewed EPA’s Audit Management Process 2750 CHG 2 and discussed the report’s final action
data with the audit follow-up coordinator.

Prior Audit Coverage

The OIG initiated a review in 2004 to determine how well EPA was carrying out activities
related to its role in the BioWatch program. During that review, we sought to determine:

   •	 What were EPA’s designated responsibilities in the BioWatch program?
   •	 How well was EPA implementing its designated responsibilities in the BioWatch 

      program?


Our 2005 report found that EPA should ensure that it fulfilled all of the BioWatch-designated
responsibilities. We found that EPA did not provide adequate oversight of the sampling
operations and did not ensure quality assurance guidance was followed. EPA’s lack of oversight
and quality assurance for the BioWatch program raised concerns about the capability of the
program. We recommended that EPA ensure that it fulfill all of its BioWatch-designated
responsibilities, including ensuring that quality assurance guidance is adhered to.

Results
We found that EPA’s role in the BioWatch program has been significantly reduced since 2003.
As a result, corrective actions agreed to for the previous OIG report are no longer required. DHS
has assumed control of the major components of BioWatch for which EPA was initially
responsible. These activities include the sampling portion of the program and the issuance of
grants to State and local air monitoring agencies to conduct daily monitoring activities.

As of January 2010, EPA’s BioWatch responsibilities were limited to providing consultation for
the development of consequence management plans for local jurisdictions upon request. In
addition, an OAR staff member had an advisory role in BioWatch relating to investigating and
testing of new technologies. Funding for these activities is provided via an interagency
agreement with DHS. For the 1-year period January 2009 to January 2010, EPA received
$780,000 from DHS for its BioWatch activities. This is a significant reduction from the
$26.8 million DHS provided EPA for Fiscal Years 2004 and 2005. We concluded that EPA’s
limited involvement in the BioWatch program eliminated the need to evaluate the status of
corrective actions taken in response to our 2005 report.




                                                2

                                                                                                                           10-P-0106




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                 POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                     Planned
    Rec.    Page                                                                                    Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1    Action Official      Date      Amount      Amount

                                  No recommendations




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                             3

                                                                              10-P-0106


                                                                            Appendix A

                                   Distribution
Office of the Administrator
Assistant Administrator, Office of Solid Waste and Emergency Response
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Acting Inspector General




                                            4

